        U.S. Department of Energy
        Office of Inspector General
        Office of Audit Services




Audit Report
Work for Others Performed by the
Department of Energy for the
Department of Defense




DOE/IG-0829                           October 2009
                              Department of Energy
                                Washington, DC 20585
                                    October 26, 2009


MEMORANDUM FOR THE SECRETARY

FROM:                    Gregory H. Friedman
                         Inspector General
SUBJECT:                INFORMATION: Audit Report on "Work for Others Performed by the
                        Department of Energy for the Department of Defense"

BACKGROUND

Pursuant to the Atomic Energy Act of 1954, as amended, and the Economy Act of 1932, the
Department of Energy and its semi-autonomous National Nuclear Security Administration
(NNSA) provide research and technical assistance to other Federal agencies on a reimbursable,
full cost recovery basis through the Work for Others (WFO) program. For the vast majority of
WFO technical projects, Department Federal officials furnish administrative project oversight
while the actual detailed scientific or technical work is completed by the Department's
"management and operating" contractors. These contractors are awarded a special contract type
specifically created under the Federal Acquisition Regulation to manage and operate Department
sites and facilities, including sophisticated laboratories and technical centers, on a government-
owned, contractor-operated basis.

With annual expenditures exceeding $1 billion, the Department of Defense (DoD) is one of the
Department's largest WFO customers. Work performed for DoD at the Department's national
laboratories and other facilities includes highly technical research in areas such as nuclear
weapons systems, counter-terrorism, and in-theater troop support. The National Defense
Authorization Act for Fiscal Year (FY) 2009, required the Inspectors General of the DoD and the
Department to review procurement methods to determine whether the Department complied with
DoD procurement requirements and/or whether alternative procurement policies were in place.
In response, we focused our review on projects performed by NNSA because it completes the
vast majority (approximately $900 million in FY 2008) of the Department's work for DoD. As
part of this effort, and, at the specific request of the DoD Office of Inspector General (DoD
OIG), we identified the universe of WFO technical projects that received new funding in the
fourth quarter of FY 2008 at NNSA sites. We independently reviewed a judgmental sample of
11 projects selected by the DoD OIG to meet the objectives of this audit.

RESULTS OF AUDIT

Our review revealed that NNSA managed DoD WFO technical projects in a manner consistent
with requirements of the Atomic Energy Act of 1954, the Federal Acquisition Regulation, and
the Department's implementing guidance, the Department of Energy Acquisition Regulation.
Because of the very nature of the Department's management and operating contracting model,
WFO projects may not be technically compliant with DoD procurement regulations in certain
instances. We found that NNSA did not let new contracts or task orders for the DoD WFO
technical projects we reviewed and instead managed them under its existing internal
                                            2

control process as part of its management and operating contract structure. In one instance, we
noted that the Department had, at DoD's request, supplemented its control structure to
incorporate specific DoD procurement requirements.

Senior Department of Energy procurement officials acknowledged that neither the Department
nor NNSA modified their existing prime contracts to incorporate specific defense procurement
requirements because such modifications would be inappropriate, costly, and inefficient. In
short, they informed us that the Department had developed and implemented a series of controls
designed to monitor overall contractor performance, including WFO technical projects.
Department and NNSA officials noted, however, that they were willing to incorporate DoD
specific requirements into work orders should DoD request and fund such efforts. Additional
details regarding management of WFO technical projects are discussed in the body of this report.

Given the importance of the work products resulting from the collaborations between the
Department and DoD, we concluded that identifying avenues to improve these relationships
would serve the national interest. Based on our review, including the analysis of the 11 projects
and discussions with both Department Federal and contractor officials, we identified several
opportunities to achieve this objective. In particular, we noted that NNSA and its contractors
had not:

   •   Always (2 of the 11 projects) provided DoD customers with specifically requested cost
       information the customer believed it needed to determine the reasonableness of costs
       charged for WFO technical projects. However, we found no evidence that DoD pursued
       the request with the contractor or pressed Department officials to intervene. And, based
       on Department documentation, each of the DoD sponsors ultimately elected to proceed
       with the requested work even though it had not received the desired information; and,

   •   Adequately defined roles and responsibilities of the Department and those of DoD
       customers for monitoring the technical performance of the management and operating
       contractor on WFO technical projects.

These matters were brought to the attention of NNSA officials during the course of the audit.
They informed us that they had initiated corrective actions to address these concerns. Their
planned actions are, according to NNSA officials, designed to ensure that DoD customers are
provided with all appropriate cost and pricing information as requested by the DoD customer and
clarify responsibilities for monitoring and control of WFO technical projects. These actions, when
fully implemented throughout the Department of Energy complex, are likely to be helpful in
improving management of WFO technical projects. We have also made several recommendations
designed to improve management of the Department's WFO process. Details of our findings,
management actions, and our recommendations are discussed in the body of this report.

Our review of this matter is substantially complete. However, based on the results of efforts to
resolve these issues, we may elect to engage in additional reviews in the future.

MANAGEMENT REACTION

Management provided technical comments on this report. Management's comments have
been included in Appendix 3.
                                          3

Attachment

cc:   Deputy Secretary
      Chief of Staff
      Administrator, National Nuclear Security Administration
      Director, Office of Procurement & Assistance Management, MA-60
      Director, Office of Acquisition and Supply Management, NA-63
      Technical Director for Institutional and Joint Programs, NA-121.4
      Manager, Sandia Site Office
      Manager, Livermore Site Office
REPORT ON WORK FOR OTHERS PERFORMED BY THE
DEPARTMENT OF ENERGY FOR THE DEPARTMENT OF
DEFENSE

TABLE OF
CONTENTS

Work for Others Projects

Details of Finding ............................................................................................................................1

Recommendations and Comments...................................................................................................7


Appendices

1. Objective, Scope, and Methodology........................................................................................10

2. Prior Report..............................................................................................................................12

3. Management Technical Comments..........................................................................................13
Work for Others Projects

Departmental          The National Nuclear Security Administration's (NNSA)
Management of Work    control structure was generally consistent with meeting the
for Others Projects   Department of Energy's (Department) requirements for Work
                      for Others (WFO) projects; however, it may not have always
                      ensured that Department of Defense (DoD) requirements were
                      met. Although NNSA prime contracts under which work is
                      performed for DoD do not specifically comply with certain
                      defense procurement requirements, we noted that the
                      Department had developed and implemented its own regimen
                      of safeguards designed to ensure that WFO technical projects
                      were appropriate. We also found that NNSA, in at least one
                      case, had included unique DoD procurement requirements in
                      the inter-agency agreement for a WFO technical project at the
                      request of the DoD.

                      In particular, the Department requires that work performed
                      under the WFO program be consistent with the mission of the
                      facility conducting the work and not:

                         •   Have an adverse impact on programs assigned to the
                             facility completing the work;

                         •   Compete directly with private sector work; and,

                         •   Create a burden on Department or NNSA resources.

                      The Department also requires its contractors to establish prices
                      for the work performed for others to ensure that the full cost of
                      such work is recovered from customers. Because WFO efforts
                      are performed under existing contracts, Department officials
                      told us that costs charged to external customers are the same as
                      those incurred by the Department for normal mission work
                      performed under its management and operating contracts.

                      An NNSA procurement official noted that WFO technical
                      projects are performed pursuant to inter-agency agreements as
                      permitted by the Atomic Energy Act of 1954, as amended
                      (42. U.S.C. 2053), and the Economy Act of 1932, as amended
                      (31 U.S.C. 1535), by existing management and operating
                      contractors and that they generally do not involve separate
                      tasks and delivery orders. The NNSA official asserted,
                      therefore, that defense procurement requirements are not
                      applicable for modification into NNSA's prime contracts. For
                      example, because WFO technical projects are performed under
                      the scope and terms and conditions of its existing facility
                      contracts and are not separate awards, an NNSA official

________________________________________________________________
Page 1                                            Details of Finding
                      explained that they do not make price reasonableness
                      determinations or obtain certified cost or pricing data for
                      individual WFO technical projects performed for DoD, or any
                      other Federal customer. According to this official, the
                      evaluation of price reasonableness and cost and pricing data is
                      performed as part of the original award of its management and
                      operating contract. Additionally, NNSA officials noted that
                      because WFO technical projects amount to technical directions
                      under existing level-of-effort contracts, certified cost or pricing
                      data per Federal Acquisition Regulation 15.403-4 is not
                      required. NNSA also told us that it provides administrative
                      oversight of WFO technical projects to ensure that they satisfy
                      the Department's program policies, including their consistency
                      with the facilities' mission. As such, the Department requires
                      its Federal field elements to, among other things, establish
                      procedures for monitoring projects in parallel with contractors
                      and WFO customers. We found that the NNSA does not
                      routinely assign separate contracting officer representatives to
                      monitor contractor performance on individual WFO technical
                      projects performed for DoD customers. Instead, a contracting
                      officer and various contracting officer technical representatives
                      are assigned to monitor performance of the management and
                      operating contractor as a whole. An NNSA official pointed out
                      that while contractor performance on individual DoD WFO
                      technical projects is not separately monitored, overall
                      performance is monitored by the Department's contractor
                      performance control structure, including annual performance
                      measures and evaluation.

                      This same NNSA official explained that costs incurred by the
                      Department's contractors, including those for WFO technical
                      projects, are subject to and undergo various financial
                      management reviews and audits, including reviews of forward
                      pricing rates, final actual costs, and Cost Accounting
                      Disclosure Statements. Department procurement officials
                      confirmed that NNSA WFO policies described above are
                      consistent with those followed by other program elements.

                      Consistent with the Department's position, in March 2005,
                      NNSA's Office of General Counsel (OGC) opined that DoD
                      specific procurement requirements were not applicable to the
                      Department's WFO program. The opinion was provided in
                      response to a request made by the Department of Navy that the
                      Department add over 226 DoD specific procurement
                      requirements to the Sandia National Laboratories (Sandia)
                      contract as a condition of a Strategic Weapons Security

________________________________________________________________
Page 2                                            Details of Finding
                      Systems WFO technical project. The OGC opined that Section
                      854 of the National Defense Authorization Act for Fiscal Year
                      (FY) 2005 preventing DoD from acquiring goods and services
                      through agencies that did not comply with DoD acquisition
                      regulation did not apply to the Department's WFO program.
                      Specifically, he concluded that the Congressional direction
                      applied to the award of contracts, including task orders or
                      delivery orders, by a civilian agency on behalf of DoD. The
                      attorney that completed the opinion noted that the WFO
                      program does not involve the award of a contract or placement
                      of a task or delivery order. Rather, the WFO program is simply
                      a vehicle through which the Department assists other entities
                      and agencies in conducting research at the Department's
                      laboratories under the existing scope, terms, and conditions of
                      previously awarded management and operating contracts.

                      Although NNSA does not believe that it is appropriate to
                      modify existing contracts to incorporate defense procurement
                      requirements, an NNSA official stated that specific defense
                      procurement requirements can be incorporated into the inter-
                      agency agreement for a WFO technical project. This official
                      stated, however, that it is the DoD contracting officer who is
                      responsible for identifying unique DoD requirements,
                      negotiating for their inclusion, and providing funding to
                      support their completion in the inter-agency agreement for
                      WFO technical projects. Unless the inter-agency agreement
                      includes DoD requirements, NNSA officials said that they are
                      not included in the scope of work for the WFO technical
                      projects. With one exception, however, we did not identify any
                      instances where DoD requested and NNSA included specific
                      defense procurement requirements in the inter-agency
                      agreements. Specifically, none of the inter-agency agreements
                      for the 11 projects we reviewed included unique defense
                      procurement requirements. NNSA officials were able to
                      provide one example of a WFO technical project providing in-
                      theater support to the DoD in Iraq where unique DoD
                      requirements were included in the inter-agency agreement at
                      the request of the DoD customer, but they were unable to
                      provide additional examples.

Cost Data and         Our review identified several issues related to interaction
Coordination Issues   with DoD WFO customers. In particular, based on testing of
                      WFO technical projects conducted by Sandia; Lawrence
                      Livermore National Laboratory (Livermore); and, the Y-12
                      National Security Complex (Y-12), we determined that
                      NNSA's contractors did not always provide the level of

________________________________________________________________
Page 3                                            Details of Finding
                      financial information requested by DoD customers. Some of
                      the information that was not provided may have been needed
                      by DoD customers to satisfy DoD requirements regarding price
                      reasonableness determinations. We also noted that the inter-
                      agency agreements between the Department and DoD did not
                      always clearly specify the respective roles and responsibilities
                      of the agencies regarding monitoring contractor performance
                      on individual WFO technical projects.

                                   Supporting/Detailed Cost Information

                      In 6 of the 11 projects we reviewed, DoD customers requested
                      additional information in support of the cost estimate prepared
                      by the NNSA's contractors. NNSA contractors provided
                      additional cost information for four of the projects but not the
                      specifics as requested for the remaining two projects.
                      Specifically, in a WFO technical project between Sandia and
                      the DoD, the WFO agreement stated that a detailed cost
                      breakdown was required and should include direct labor,
                      indirect costs, other costs such as materials, government
                      furnished equipment, and fee. Instead of including specific
                      costs, Sandia provided a cost estimate that contained a
                      summary of monthly direct labor dollars, direct labor hours,
                      travel, and subcontract costs to the DoD customer. The DoD
                      customer responded that the proposed cost estimate contained
                      insufficient detail to support its analysis and evaluation of
                      proposal. The DoD requested individual direct labor categories
                      and rates; indirect costs; other direct costs; materials; fringe;
                      and, general and administration (G&A) costs. Sandia provided
                      a second cost estimate detailing the monthly cost totals and a
                      standard form letter stating that its specific overhead cost
                      recovery rates and individual salary rates were proprietary
                      information and were generally not released externally.

                      In another WFO technical project with Livermore, the DoD
                      requested a detailed breakdown of the cost estimate including
                      direct labor; indirect costs (fringe benefits, overhead, and
                      G&A; travel costs); and, an itemized list of acquired equipment
                      costs. Livermore prepared a cost estimate that contained
                      limited cost details including post doctoral and full time
                      equivalent hours and rate per hour, travel, and a summary of
                      the total indirect costs. According to Livermore officials, the
                      Laboratory historically had not released indirect cost details to
                      outside entities. Thus, Livermore did not provide a detailed
                      listing of the indirect costs as requested to the DoD.



________________________________________________________________
Page 4                                            Details of Finding
                      We found no evidence in either of the above cases that the DoD
                      customers continued to pursue obtaining the cost information they
                      requested before agreeing to the projects.

                                Clearly Defined Roles and Responsibilities

                      Inter-agency agreements between NNSA and DoD did not
                      clearly specify the respective roles and responsibilities of the
                      agencies regarding monitoring contractor performance on
                      individual WFO technical projects. Department WFO policies
                      require Heads of Field Elements and NNSA Site Office
                      Managers to develop and implement procedures for WFO
                      review, acceptance, authorization, and monitoring; and,
                      encourage parallel review and processing by the Department,
                      the WFO customer, and NNSA site contractor. Further, the
                      Office of Management and Budget (OMB) Office of Federal
                      Procurement Policy guidance, dated June 6, 2008, requires
                      agencies entering into interagency agreements to specify each
                      party's roles and responsibilities to ensure the effective
                      management of such agreement. We found no evidence that
                      roles and responsibilities for monitoring contractor
                      performance was specified in the 11 agreements we reviewed.
                      Furthermore, we found no evidence that NNSA had designated
                      a contracting officer representative for any of the 11 projects.

                      NNSA officials explained that they do not have either the
                      resources or the special knowledge of the customer that is
                      needed to monitor each WFO technical project performed for
                      DoD. These officials also indicated that such services could be
                      provided to the DoD customer, but that it would be provided at
                      added cost since the Department's policy is to recover the full
                      cost of WFO work. The Office of Inspector General (OIG) has
                      previously pointed out performance problems that can occur in
                      work performed for other agencies because the roles and
                      responsibilities of NNSA and customer agencies were not
                      clearly defined. Specifically, in our report on National
                      Nuclear Security Administration's Construction of a
                      Radiological/Nuclear Complex for the Department of
                      Homeland Security (DOE/IG-0775, September 12, 2007), we
                      pointed out that a lack of clarity about the roles and
                      responsibilities of NNSA and the Department of Homeland
                      Security for managing and coordinating the project resulted in
                      its completion being significantly delayed and original cost
                      estimates exceeded.




________________________________________________________________
Page 5                                            Details of Finding
                      In response to our prior report, NNSA issued draft guidance to
                      its site offices in September 2008 regarding roles and
                      responsibilities on WFO agreements. The proposed guidance
                      stated that prior to initiating WFO technical projects, site
                      offices should specify responsibilities for monitoring contract
                      performance in interagency agreements and statements of
                      work. However, according to an NNSA official, the guidance
                      was not finalized pending a Department decision regarding the
                      applicability of the June 2008 OMB guidance, as well as a
                      NNSA internal assessment of its site offices' execution of the
                      WFO program. This assessment was recently completed and
                      NNSA is in the process of evaluating the results to identify any
                      systemic problems.

Recent Guidance       According to an NNSA procurement official, cost information
                      at the Department's facility and management contractors is
                      Federal information and is available to other Federal agencies.
                      This official also agreed that WFO agreements should clearly
                      define roles and responsibilities of the Federal partners for
                      overseeing the facility contractors' performance. Accordingly,
                      NNSA issued guidance on August 26, 2009, to its site offices
                      regarding the availability of cost information to Federal
                      agencies and roles and responsibilities on WFO agreements.
                      Specifically, the guidance stated that cost and technical
                      performance data will be provided to a requestor to ensure the
                      technical representatives have sufficient information to monitor
                      the WFO technical projects. The guidance also stated that,
                      prior to initiating WFO technical projects, site offices should
                      specify the Department's, DoD's or other federal entity
                      requestor's responsibilities for monitoring contract performance
                      in interagency agreements or statements of work. These
                      actions, if fully implemented, should result in more visible cost
                      information and clearly defined roles and responsibilities to
                      monitor WFO performance.

                      While NNSA's recent guidance addresses issues discussed in
                      this report, it applies only to NNSA contracting officers and
                      does not apply to the entire Department. We could find no
                      evidence that the Department has issued similar clarifying
                      guidance that would be applicable to other sites performing
                      work for DoD including those managed by the Office of
                      Science.




________________________________________________________________
Page 6                                            Details of Finding
                       As required by the National Defense Authorization Act
                       (NDAA), the DoD recently announced that procurements from
                       non-defense agencies that had not certified as complying with
                       defense procurement requirements would be limited to
                       $100,000 or less. The Department certified to DoD in 2008
                       and 2009, that all reimbursable work performed for DoD by the
                       Department's contractors would comply with Federal
                       Acquisition Regulations and Department of Energy Acquisition
                       Regulations. The Department, however, acknowledged that
                       DoD may determine that additional requirements are necessary
                       to meet the requirements of the NDAA. The Department
                       asserted that it did not believe that the subject NDAA
                       requirements were applicable to reimbursable work performed
                       by the Department and its contractors; however, it committed
                       to reaching agreement with DoD on additional work
                       requirements prior to performing any work.

                       Despite the Department's certification to DoD, Sandia
                       informed us that it has received notice from certain DoD
                       customers that they will halt funding for WFO technical
                       projects under the terms of the NDAA. Realistically, in the
                       case of Sandia, this restriction could prevent DoD from
                       acquiring mission-related services that could be critical to the
                       national defense and which are available from no other sources.

Cost and Performance   Without detailed cost information and clarification of
Impacts                contractor performance monitoring roles and responsibilities,
                       NNSA cannot be assured that it is meeting the needs of its DoD
                       customers. For example, without detailed cost and pricing
                       information, DoD customers may not be able to obtain all
                       pricing information they believe is necessary to satisfy defense
                       procurement regulation requirements. Unless monitoring roles
                       and responsibilities are clearly defined for WFO projects, vital
                       national security projects performed by NNSA for DoD may
                       not be completed within cost estimates and established
                       performance schedules. Prompt action to address recently
                       imposed procurement restrictions is also necessary to ensure
                       that DoD continues to be provided with unique, and likely
                       mission critical, research and other services.

RECOMMENDATIONS        We recommend that the Department's Director, Office of
                       Procurement and Assistance Management, and NNSA's Senior
                       Procurement Executive:

                          1. Enter into a Memorandum of Understanding (MOU)
                             with the DoD Senior Procurement Executive to

________________________________________________________________
Page 7                              Recommendations and Comments
                               establish the respective agencies' roles and
                               responsibilities pertaining to WFO technical projects to
                               ensure compliance with the National Defense
                               Authorization Act; and,

                            2. Continue to work with DoD procurement officials and
                               Congress as necessary to resolve recently imposed
                               funding restrictions on WFO technical projects.

                        We also recommend that the Department's Director, Office of
                        Procurement and Assistance Management in coordination with
                        NNSA's Senior Procurement Executive issue guidance:

                            1. Clarifying its policy on the release of detailed cost and
                               pricing information to WFO customers; and,

                            2. Requiring Department contracting officers to clearly
                               specify the Department's and other federal entity
                               requestor's roles and responsibilities for monitoring
                               contractor performance on WFO technical projects.

                        Finally, we also recommend that the Senior Procurement
                        Executive, NNSA, periodically monitor WFO agreements to
                        ensure that the directions regarding pricing data and clarity of
                        responsibilities are adhered to.

MANAGEMENT        Department and NNSA procurement officials provided
REACTION AND      technical comments on a draft of this report. We addressed
AUDITORS COMMENTS management's technical comments throughout the body of this
                  report.

                        Additionally, management questioned the level of detail for
                        cost and pricing data that should be provided to DoD, and how
                        coordination with the Defense Contract Audit Agency would
                        be achieved should DoD task that agency to audit cost and
                        pricing data. Management also suggested that we focus our
                        recommendations solely on the Department and NNSA
                        entering into a MOU with DoD regarding roles and
                        responsibilities for ensuring compliance with the NDAA.

                        The level of detail for cost and pricing data to be provided to
                        DoD should be based, in our view, on agreements reached in
                        the development of the recommended MOU between the
                        Department, NNSA and DoD. Coordination with the Defense
                        Contract Audit Agency, and other audit organizations outside
                        the Department, is the responsibility of the OIG as the

________________________________________________________________
Page 8                              Recommendations and Comments
                     cognizant audit organization for the Department of Energy and
                     NNSA.

                     Finally, we continue to believe that further actions are
                     warranted in the areas of guidance and monitoring the
                     performance of WFO technical projects by the Department's
                     and NNSA's management and operating contractors that are
                     beyond the establishment of the recommended MOU.




________________________________________________________________
Page 9                              Recommendations and Comments
Appendix 1

OBJECTIVE             To determine whether the Department of Energy
                      (Department) complied with Department of Defense (DoD)
                      procurement requirements when performing work for the
                      DoD.

SCOPE                 The audit was performed between March and October 2009
                      at Sandia National Laboratories (Sandia), the Sandia Site
                      Office; Lawrence Livermore National Laboratory
                      (Livermore); the Livermore Site Office; the Y-12 National
                      Security Complex (Y-12); Y-12 Site Office; and,
                      Department and the National Nuclear Security
                      Administration Headquarters. We reviewed 11 projects
                      judgmentally selected by the DoD Office of Inspector
                      General (DoD OIG) that either received new or continuing
                      DoD obligations in the last quarter of Fiscal Year (FY)
                      2008.

METHODOLOGY           To accomplish the audit objective, we:

                         •   Reviewed applicable Laws, Departmental Orders,
                             other Departmental guidance, and contracts;

                         •   Reviewed and analyzed internal NNSA guidance;

                         •   Identified the universe of Work for Others (WFO)
                             projects that received new DoD funding in the
                             fourth quarter of FY 2008 at NNSA's sites;

                         •   Tested 11 WFO technical projects judgmentally
                             selected by the DoD OIG for compliance with
                             Department WFO policies and procedures; and,

                         •   Interviewed key Department, NNSA, and contractor
                             personnel.

                      We conducted this performance audit in accordance with
                      generally accepted government auditing standards. Those
                      standards require that we plan and perform the audit to
                      obtain sufficient, appropriate evidence to provide a
                      reasonable basis for our findings and conclusions based on
                      our audit objective. We believe that the evidence obtained
                      provides a reasonable basis for findings and conclusions
                      based on our audit objective. The audit included tests of
                      controls and compliance with laws and regulations
                      necessary to satisfy the audit objective. Because our
                      review was limited, it would not necessarily have disclosed
                      all internal control deficiencies that may have existed at the
________________________________________________________________
Page 10                            Objective, Scope, and Methodology
Appendix 1 (continued)

                      time of our audit. We assessed performance measures
                      established under the Government Performance and Results
                      Act of 1993 and found that Sandia, Livermore, and Y-12 had
                      specific performance measures related to the WFO program.
                      Finally, we determined that computer-processed data was
                      integral to meeting the objective of this audit.

                      Department and NNSA officials waived an exit conference.




________________________________________________________________
Page 11                            Objective, Scope, and Methodology
Appendix 2

                                    PRIOR REPORT

Office of Inspector General Report

   •   The National Nuclear Security Administration's Construction of a
       Radiological/Nuclear Complex for Homeland Security, (DOE/IG-0775, September
       2007). The Department of Energy (Department) and the Department of Homeland
       Security (Homeland Security) entered into an interagency agreement with National
       Nuclear Security Administration's Nevada Site Office to construct the
       Radiological/Nuclear Countermeasures Test and Evaluation Complex (Rad/Nuc
       CTEC). Homeland Security requested that the project be fast-tracked so that
       construction at Nevada Test Site could begin before building design was completed in
       order to have the project completed by February 2007. The audit determined that
       management and coordination responsibilities between the Department and
       Homeland Security were not clearly defined and the project was not appropriately
       staffed. The audit concluded that experience with the (Rad/Nuc CTEC) project
       provided important "lessons learned" for managing the Department's expanding
       portfolio of Work for Others projects.




___________________________________________________________________
Page 12                                                   Prior Report
Appendix 3

                                                                               October 8, 2009

                     Joint DOE/NNSA Comments on Draft Audit Report
                      Work for Others Performed by the DOE for DOD

1. The cover memo and draft report contain several references which incorrectly state that
the requirements of Section 801 of the NDAA for FY 2008 require non-Defense agencies,
including DOE, to certify and comply with “all defense procurement requirements” (e.g.,
transmittal, 3rd line from bottom, and page 1, first paragraph of draft report), and/or “Defense
Federal Acquisition Regulations (DFAR) requirements” (several references in cover memo
and body of the draft report). This characterization of the requirement in the draft report is
inconsistent with both Section 801 and DOD’s implementing regulations at DFARs
217.7800. Both require certification and compliance with “defense procurement
requirements.” The law and regulation neither prescribe compliance/certification with “all”
defense procurement requirements, nor with DFARs. It should be noted that “defense
procurement requirements” may be prescribed by various policy issuances which are not
exclusive to the DFARs. A DOE analog would be the DEAR, DOE/NNSA Acquisition
Letters, the DOE Acquisition Guide, DOE Orders, and written policy direction by the
respective DOE and NNSA Senior Procurement Executives. In addition, it should be further
noted that DOD has not formally defined what “defense procurement requirements”
encompass beyond general instruction to DOD personnel prescribed at DFARs 217.7802.

2. Page 2 of the cover memo identifies four bullets as “DOD procurement tasks.” These
requirements are not unique to DOD nor are all of these requirements prescribed in either the
FAR or DFARs. Moreover, DOD has not formally prescribed such requirements for DOE
or, to our knowledge, any other non-Defense agency pursuant to Section 801 and DFARS
217.7800. The report correctly addresses both DOE and NNSA procurement official’s
determination that these requirements do not generally apply to WFO technical projects
under an M&O contract.

3. Reference 4th bullet on page 2 pertaining to pre-award audits of project level costs.
Throughout the draft report there are references indicating that DOD desires and that DOE
should provide DOD with detailed cost and pricing information for the purpose of review and
audit of such information by DOD officials. The report fails to address the level of detail that
the OIG believes will satisfy DOD’s concerns with respect to cost/pricing data (e.g., cost-
level breakdowns of direct labor rates and indirect rates). Moreover, the provision of such
information for the purposes of DOD analysis/audit would presumably invite DOD to task
the Defense Contract Audit Agency (DCAA) to audit the information which would require
DCAA access to and audit of M&O contractor accounting records. The draft report does not
address how such access would be coordinated with the DOE OIG as the cognizant auditor
for DOE M&O contracts.

4. Page 3 of cover memo and page 5 of the report incorrectly state that DOE has not
provided the requested DOD certification. Attached are the executed certifications, dated
October 7, 2008, and October 8, 2009.



___________________________________________________________________
Page 13                                 Management Technical Comments
Appendix 3 (continued)

                                                                              October 8, 2009

5. Report, page 1, first paragraph indicates a finding that NNSA control structure has not, in
the past, ensured compliance with DOD procurement requirements for WFO technical
projects. This should be rewritten to acknowledge that no such requirement existed prior to
enactment of 801; that DOE/NNSA has, in fact, certified to such compliance subject to DOD
specifically defining applicable defense procurement requirements for each WFO technical
project; and, with one exception as noted in the draft report, to date, DOD has not defined
any such requirements for NNSA (or DOE) WFO technical projects.

6. Replace the term “WFO project” with “WFO technical project” throughout.

7. Page 1 of the report, last paragraph, replace “DFARs” with “DOD”.

8. In lieu of the recommendations on page 6 of the report, we suggest that the OIG consider
the following single recommendation:

“The DOE and NNSA Senior Procurement Executives should enter into a Memorandum of
Agreement with the DOD Senior Procurement Executive to establish the respective agencies
roles and responsibilities pertaining to WFO technical projects to ensure compliance with
Section 801 of the NDAA for FY 2008.”




___________________________________________________________________
Page 14                                 Management Technical Comments
                                                             IG Report No. DOE/IG-0829

                       CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of
its products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding
   this report?

2. What additional information related to findings and recommendations could have
   been included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's
   overall message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the
   issues discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should
   we have any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector
General at (202) 586-0948, or you may mail it to:
                           Office of Inspector General (IG-1)
                                 Department of Energy
                                Washington, DC 20585

                              ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Felicia Jones at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                  http://www.ig.energy.gov

  Your comments would be appreciated and can be provided on the Customer Response Form.
